Executive Report



Return to the USDOJ/OIG Home Page



Community Oriented Policing ServicesGrants to the Village of Maywood, Illinois Police Department
GR-50-00-012   
February 10, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Village of Maywood, Illinois Police Department (Maywood PD).  The purpose of the grants is to enhance community policing.  The Maywood PD was awarded a total of $1,050,000 to hire 14 new police officers and redeploy the equivalent number of existing full-time officers from administrative duties to community policing.

	We reviewed the Maywood PD's compliance with essential grant conditions.  Our audit revealed weaknesses as identified below.  As a result, we question $334,260. 1

The Maywood PD did not maintain the required number of total on-board officers during the period reviewed.  Although COPS has reimbursed the Maywood PD for 9 additional officers, the grantee has only maintained, on average, the equivalent of about 4.9 additional officers.
 
	The Maywood PD did not establish and maintain an adequate system of accounting to separately accumulate and summarize COPS grant expenditures.  As a result, grant costs were estimated and reimbursement requests were unsupported.	

	Officer Progress Reports and the Annual Department Reports were not submitted to COPS, and the Department Initial Report and Financial Status Reports were not submitted timely.  In addition, costs reported in the Financial Status Reports were not accurate. 	

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix II for a breakout of our dollar-related findings and definitions of questioned costs.